SUPREME COURT OF THE UNITED STATES
October Term, 2020

SCOTT ESTES ‘
Petitioner,
NO.

VS.

UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

NOW COMES the Petitioner/Defendant, Scott Estes, by counsel, pursuant to Supreme
Court Rule 39, and requests leave to proceed in forma pauperis. In support this motion,
Petitioner provides the following:

1. Petitioner stands convicted, following a trial in United States District Court for
the District of Maine of 18 U.S.C. § 922(g) and 18 U.S.C. § 922(j). A timely appeal was filed
with the First Circuit Court of Appeals, which appeal was denied.

2. Petitioner is petitioning the Supreme Court for a Writ of Certiorari.

3. Petition has been found indigent on May 23, 2018 and undersigned counsel,
Robert C. Andrews, Esq., was appointed in the United States District Court for the District of
Maine on May 23, 2018 and remained counsel of record through the appeal in the United States
Court of Appeals for the First Circuit. Attorney Andrews remains Mr. Estes’s appointed counsel
of record.

4, As counsel was appointed pursuant to the Criminal Justice Act at the trial and
appellate level, leave to proceed in forma pauperis has not previously been sought.

WHEREFORE, it is requested that Petitioner's motion for leave to proceed in forma
pauperis be granted,

Dated at Portland, Maine on this 16th day of August 11, 2021.

    

Robert C. Andrews, Esq.
Attorney for Scott Estes, Petitioner
Robert C, Andrews

117 Auburn Street Suite 201
Portland, Maine 04103

(207) 879-9850
CERTIFICATE OF SERVICE

1, Robert C. Andrews, attorney for Petitioner Scott Estes, hereby certify that I have
caused, pursuant to Supreme Court Rule 39.2, one original of Petitioner's Motion for Leave to
Proceed Jn Forma Pauperis to be served upon the following:

Clerk United States Supreme Court
1 First Street, NE
Washington, DC 20543

and one copy upon:

Julia Lipez, AUSA
100 Middle Street 6"" Floor
Portland, Maine 04101

Said Motion having been sent to the above addresses by first class mail, postage prepaid, this
11th day of August, 2021.

Robert C, Andrews, Esq.
Attorney for Scott Estes,
Petitioner

Robert C. Andrews

117 Auburn Street Suite 201
Portland, Maine 04103
(207) 879-9850
